Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   AMBULANCE SERVICES FOR
  MEDICARE END-STAGE RENAL
    DISEASE BENEFICIARIES:

       MEDICAL NECESSITY
                       OFFICE       OF INSPECXOR            GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Semites’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspedions. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                           OFFICE       OF AUDIT        SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                           OFFICE      OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

               OFFICE      OF EVALUATION               AND     INSPECI’IONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efllciency, vulnerability,
and effectiveness of departmental programs.

This report was prepared in the Philadelphia regional office under the direction of Joy Quill,
Regional Inspector General and Robert A Vito, Deputy Reigonal Inspector General. Project
staff

REGION                                         HEADQUARTERS

Isabelle Buonocore, Project Leader             W. Mark Krushat, MPH, SCD

Nancy Molyneaux, Lead Analyst                  Barbara Tedesco, Mathematical Statistician

Michael Hayes, Intern                          Brian Ritchie, Program Analyst

Mark Delowery, DO, Medical Contractor          Hugh Hetzer, Program Analyst

                                               Lisa Foley, OIG/Office of General Counsel

For additional copies of this report, please contact the Philadelphia office (215-596-0606).
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENEW




   AMBUIANCE SERVICES FOR
  MEDICARE END-STAGE RENAL
    DISEASE BENEFICIARIES:

       MEDICAL NECESSITY




              ss~wct$.b

           +@%

         *+4
        g                  JUNE GIBBS BROWN
       su.                 Inspector General
        ‘6
         %+$, -g
                               AUGUST 1994
           %za
            >
       —                      0EI-03-90-02130
              EXECUTIVE                          SUMMARY


PURPOSE

This study determined   whether   1991 dialysis-related ambulance claims for beneficiaries
with end-stage renal disease (ESRD)     met Medicare’s Part B coverage criteria for
medical necessity.

BACKGROUND

The Medicare Part B benefit for ambulance service has very strict limits. These are
explained by the Health Care Financing Administration (HCFA) in the Medicare
Carriers Manual, Section 2120. The transport is not covered if it fails to meet the
medical necessity requiremen~ even if it meets other requirements. The Carriers
Manual states that no payment maybe made in any case in which some means of
transportation other than an ambulance could be utilized without endangering the
individual’s health, whether or not such other transportation is actually available.
Generally, ambulance transport is covered for patients whose condition requires
emergency medical attention, or whose condition makes it impossible to si; and
requires transfer by stretcher.

A small number of ESRD beneficiaries are associated with extremely high ambulance
payments. In 1991, there were 193,883 ESRD beneficiaries with Part B claims, of
whom only 21 percent had ambulance claims. The ambulance allowances totalled
$101 million, 75 percent of which was for less than 2 percent (2,573) of the
beneficiaries. The high dollars for so few people is related to use of ambulances three
times per week for maintenance dialysis.

We conducted a medical review of 1991 dialysis-related ambulance claims to assist
HCFA in its continuing efforts to assess coverage and payment policies. The universe
for this study was the 16 carriers with the highest Part B ambulance allowances. They
represented 87 percent of total Part B ambulance allowances for ESRD beneficiaries
($85 million out of $101 million). The claims were selected in a two-stage cluster
design. First we selected 8 carriers from the 16 in our universe, and then we selected
35 random claims from each of the 8 carriers. The medical review was conducted by a
team of medical professionals from Federal Occupational Health (FOH), a division of
the Public Health Service. The FOH has conducted other medical reviews for various
Federal agencies including HCFA. We also analyzed data from HCF~ carriers,
ambulance providers, dialysis facilities, and the American Ambulance Association.

FINDINGS

Seventy percent of didjwir-related ambuihnce clabm acnx     16 caniem with the highest
albwances did not meet Medicarek covemge *b             for rnedd necessity. 7%4ne
ckzims reprewnt $4% rndh~


                                             1
W%iikcaniem had systems to iien~ clabm that did not meet Medicare guidehq
medically unnecessary claims were paid

       Results of systems carriers used to identify inappropriate   claims were not clear.


       Carriers may have been misled to believe claims were medically necessary when

       providers used key phrases on claim forms to give the appearance that

       transport was medically necessary.


       Carriers do not routinely include ambulance transports for beneficiaries with

       ESRD in their post-payment reviews.


       Since 1991, three carriers have adopted new systems to identify inappropriate

       claims.


RECOMMENDATIONS

After we informally alerted HCFA to our preliminary findings, HCFA took the
initiative to collect ESRD ambulance coverage policies horn 43 carriers. The HCFA
shared this information with us, and our review of it confirmed our findings regarding
the eight carriers in our sample. Therefore we recommend:

The HCFA shouki ensure thd chns       meet Medicare covemge @Wines.

We suggest the following targeted options as ways to address the problems described
in this report. For carriers with very high ambulance allowances:

  .	   Alert them that utilization of ambulance service by ESRD beneficiaries is
       highest for dialysis-related transports, that these claims are for a small number
       of ESRD beneficiaries, and many of these claims are not medically necessary.

  .	   Alert them it is possible to identify, in a prospective manner, those ESRD
       beneficiaries with high potential for large expenditures for ambulance services.
       Two methods for identitjing these beneficiaries were described in the Office of
       Inspector General report, Ambulance Sewices for Medicare ESRD Benejiciarh
       Payment l?ractices (OEI 03-90-02131). One method looks at the number of
       days between the first and second trip claimed during the year. The second
       looks at the number of trips for which claims were filed within a fixed time
       period, e.g., 15 days.

  �	   Identifj those with methods which ensure that transport for ESRD beneficiaries
       is medically necessary, and advise other carriers of these methods. Methods
       that are practical and cost-effective will vary depending on the carrier’s overall
       volume and other considerations. For example, a carrier with a relatively low
       volume may effectively pre-authorize ambulance transport for ESRD
       beneficiaries going to dialysis. A carrier with high volume may prefer to


                                            ii
             electronically suspend. for medical review, ESRD-related    ambulance claims
             when there are more than six transports in a month.

        �	   Advise beneficiaries of the limited nature of the ambulance benefit, and
             encourage them to call the earner if the supplier misrepresents Medicare
             coverage. Carriers could send such a message to beneficiaries directly by mail
             and through national and local senior citizen groups and newspapers.

        �	   Advise ambulance companies of Medicare’s limited coverage of ambulance
             service and the consequences of submitting bills for transports that are not
             medically necessary. Carriers could distribute notices to providers directly and
             through national and local trade associations.

        �	   Advise dialysis-facility physicians of the limits of Medicare’s coverage for
             ambulance service as they are often the physicians called upon to sign
             certifications of medicaI necessity. Carriers could include this advice in their
             provider education material.

        �	   Periodically, conduct a medical necessity review of ESRD-related     ambulance
             claims.

        �	   Conduct studies to determine: (1) what percentage of ESRD beneficiaries
             being transported to dialysis in ambulances could use wheelchair vans or some
             other non-emergency vehicle; and (2) whether dialysis facilities would cover the
             cost of ambulance sewice, for ESRD beneficiaries who need it, for an add-on
             to the composite rate Medicare pays for dialysis.

     We also suggest that HCFA could:

       �	    Advise beneficiaries of the limited coverage for ambulance semice through T7ze
             Guide to Health I.urance for People with Medicare.

       �     Z7zeMedicare Handbook already has a section which explains
                                                                 .      the limited
             ambulance transportation benefit. However, the section on fraud and abuse
             mentions ambulance providers only indirectly--under the umbrella of health
             care semice provider. Since beneficiaries may not connect the two, perhaps
             ambulance transport could be identified as an example of a health care sexvice.

     We have already referred to our Office of Investigations all cases that involve possible
     fraud. Details of our medical review of claims are available should HCFA wish to
     review these claims or take any action.




.—
                                                 ...
                                                 Ill
COMMENTS FROM HCFA

The HCFA concurs with our recommendation that they ensure that claims meet
Medicare guidelines. They have listed steps they are taking to address our
recommendation.    Appendix C contains the full comments.




                                        iv
                         TABLE                     OF CONTENTS

                                                                                                                      PAGE
—.————              --——      .. —--

ExH3J-1-lvE         SUMMAKY


INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 .                 . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 . . 4

  Medically umecessa~             transports        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 ,. 4

  Carrier identification ofinappropriate                  claims. . . . . . . . . . . . . . . . . . . . . . . . . . .
 ,. 5

RECOMMENDATIONS                      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
    10


ENDNOTES            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
   12

APPENDICES


  Ambulance coverage and limitations (MCM 2120, 2125) . . . . . . . . . . . . . . . . . .
 A-1

  Methodology        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 B-1

  Comments fiomthe             Health Care Financing Administration                         . . . . . . . . . . . . . . .
 c-1
                          INTRODUCTION

PURPOSE

This study determined whether 1991 dialysis-related ambulance claims for beneficiaries
with end-stage renal disease (ESRD)l met Medicare’s Part B coverage criteria for
medical necessity.

BACKGROUND

The Medicare Part B benefit for ambulance service has very strict limits. These are
explained by the Health Care Financing Administration (HCFA) in the Medicare
Carriers Manual (see Appendix A). The transport must meet requirements in the
areas of medical necessity, destination, vehicle, and crew. It is not covered if it fails to
meet the medical necessity requirement, even if it meets the other requirements.       The
Carriers Manual states that no payment may be made in any case in which some
means of transportation other than an ambulance could be utilized without
endangering the individual’s health, whether or not such other transportation is
actually available (section 2120.2.A.). The Manual also states that a person receiving
outpatient dialysis is not ordinarily ill enough to require an ambulance (section
2120.3 .J.). Generally, transport is covered for patients whose condition requires
emergency medical attention, or whose condition makes it impossible to sit and
requires transfer by stretcher (section 2125.2).

The limited nature of coverage for ambulance was shown in a complaint dismissed by
a U.S. District Court. The court rejected an argument that when a physician finds
that other forms of transportation are contraindicated there is a presumption of
coverage for ambulance expenses. The case involved an intermediacy that had
deter&ned the ambulance sexvices were not reasonable and necessaxy because the
patients in question were able to ambulate with the aid of walkers and wheelchairs.
The provider argued that Medicare imposed a responsibility on physicians to
determine when other means of transportation are unsafe. If physicians certi& the
need for ambulance, the certifications should ensure payment. The court said
physician certification was only one of several conditions of coverage under Part B and
that the Secretary had a continuing obligation to review the patient’s condition and
need for an ambulance.2

A small number of ESRD beneficiaries are associated with extremely high ambulance
payments. In 1991, there were 193,883 ESRD beneficiaries with Part B claims, of
whom only 21 percent had ambulance claims. The ambulance allowances totalled
$101 million, of which 75 percent was for less than 2 percent of the beneficiaries
(2,573). The high dollars for so few people is related to use of ambulances three
times per week for maintenance dialysis.3




                                              1

Ambulance providers submit claims on behalf on the beneficiaries they transport.
Maintenance dialysis transports account for a high volume of sefices by a small
number of providers. In 1991, only 4 percent4 of all ambulance providers receiving
Part B payments (215 out of 5,228) had 72 percent or $73 million of the total
allowances for ESRD beneficiaries.

Medicare carriers process all types of Part B claims. They have a variety of systems to
identi@ inappropriate claims in both pre-payment and post-payment stages of
operations. In the pre-payment stage, for example, claims may be suspended for
additional development that could lead to paying or denying the claim. Providers have
the right to appeal a carrier’s decision to deny payment. On the post-payment side,
carriers review samples of claims more closely, and might even conduct medical
reviews. Claims for post-payment reviews are usually selected on a priority basis from
particular provider groups that represent high expenditures or aberrant billing.

Other Office of Inspector General (OIG) reports, issued within the last 10 years,
indicated that ambulance policies were vulnerable to abuse, and a Medicare consultant
with the American Ambulance Association indicated that many of the dialysis-related
transports may not meet Medicare guidelines for medical necessity.

This is the first national study to retrospectively examine the medical necessity of
randomly selected ambulance claims for beneficiaries with ESRD. We conducted a
medical review of dialysis-related claims and examined carrier policies and procedures
for identifying claims for medically unnecessary transports. Our objective is to assist
HCFA in its efforts to assess coverage and payment policies for ambulance semice.

SCOPE AND METHODOLOGY

This report is focused on transports of ESRD beneficiaries to and from dialysis
facilities. It is based on calendar year 1991 data from HCF& Medicare carriers,
ambulance company representatives, and dialysis facility nurses and physicians. We
collected the data from November 1992 through December 1993.

To determine the availability of data and to clar@ issues, we met with representatives
of HCF~ a Medicare carrieq the American Ambulance Association, and dialysis
facilities. We also reviewed ambulance studies conducted within the Department
(1983-1993) and ambulance-related Management Information Reports (1988-1993) by
the OIG’S Office of Investigations.

To review ambulance claims for ESRD beneficiaries, we selected a sample of carriers
and claims using a two-stage cluster design. Total Part B ambulance allowances for
ESRD beneficiaries were $101 million. Of that amoun~ $85.3 million represents 16
carriers whose allowances were the highest. From those top 16 carriers, we randomly
selected 8. We then chose a simple random sample of 35 claims from each of the 8
carriers for a total of 280 claims. Of the 280 sampled claims, 180 were dialysis-related.



                                            2

Our findings regarding the dialysis-related claims are projected from the 8 sampled
carriers to the universe of 16 carriers.

A medical team, headed by a physician from Federal Occupational Health (FOH), a
division of the Public Health Semite, determined whether the dialysis-related claims
met Medicare guidelines for medical necessity. The FOH has conducted other
medical reviews for various Federal agencies including HCFA. The medical team did
not review claims that were not related to dialysis (62 out of 280) or for which data
was inaccessible (38 out of 280).

Methodology details regarding sampling, data collection, and analyses are in Appendix
B. The confidence levels regarding estimates in this report are also in Appendix B.

This study was conducted in accordance with the Quality Standark for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                           3

                                 FINDINGS


SEVENTY PERCENT OF TIUWSPOR’I’S INVOLVING DIALYSIS DID NOT
MEET MEDICARE’S GUIDELINES FOR MEDICAL NECESSITY. THESE
CLAIMS REPRESENT AN ESTIMATED $44 MILLION.

While ESRD beneficiaries used ambulance semice in a variety of circumstances,
approximately 67 percent of the claims in our universe involved transports to or from
dialysis. Our universe was 16 carriers with the highest ESRD ambulance allowances.
Of the dialysis-related transports, 70 percent did not meet coverage guidelines for
medical necessity. They represent an estimated $44 million in ambulance allowances.
The percentages of medically umecessary dialysis-related ambulance trips for each of
the 8 sampled carriers were 23, 48, 50, 70, 81, 81, 85, and 91 percent (as shown in
Table 5, page B-6).

Our medical review had three possible outcomes. The claims either did not meet
Medicare guidelines (70 percent), did meet guidelines (29 percent), or conflicting data
prevented a determination (1 percent). By conflicting dat~ we mean that a claim
folder had data which contradicted other data in the same folder.

Beneficiaries can obtain immediate ambulance service in emergency situations. In
non-emergency situations (e.g., transport for routine dialysis) they can schedule service
in advance of the transport date. Virtually all (99 percent) of the dkdysis-related
transports in our sample were scheduled. According to ambulance company
respondents, nearly all of the beneficiaries (97 percent) associated with these claims
were transported by the company on a regular basis: three times per week was the
average. (See tables on pages B-4 and B-5 for confidence intervals of percentages in
this paragraph.)

Bene@u&s     could have used other forms of transp~tiom

Claims did not meet Medicare guidelines because on the date of ambulance service
beneficiaries did not have conditions that contraindicated use of another type of
transport. Of the claims that were medically necessaq, beneficiaries had conditions
including-but not limited to--dementi~ contractures, hypotension after dialysis, spinal
cord compression, and severe obesity. Beneficiaries associated with claims that did not
meet medical necessity guidelines did not have these kinds of conditions.

In addition to not having medical conditions requiring an ambulance, almost two-thirds
of the beneficiaries (63 percent) were clearly not bed-confined. The claim folders
contained evidence that 28 percent of the claims were for ambulatory patients and 35
percent were for beneficiaries in wheelchairs on the date of ambukmce service, as
obsemed by dialysis facility staff (see Table 6 on page B-6 for confidence intervals).



                                            4

A beneficiary’s use of a wheelchair or ability to walk did not automatically mean the
claim did not meet Medicare guidelines. There were cases where beneficiaries were
ambulatory or wheelchair capable but had other destabilizing conditions, such as low
blood pressure after dialysis that may have required monitoring, and therefore an
ambulance was justified.

Claim folders reviewed by our medical team contained data about the patient’s
medical history, diagnoses, and ambulatory status. According to Medicare guidelines,
a diagnosis of ESRD is not sufficient explanation to warrant an ambulance. The
reviewers evaluated the accumulated data and determined that claims did not meet
Medicare guidelines if there was no medical condition that confined the patient to bed
and/or made travel by other than an ambulance unsafe. “Bed-confined” was a
commonly used phrase on claim forms but data regarding the claims did not support
it.

WHILE CARRIERS HAD SYSTEMS TO IDENTIFY CLAIMS THAT DID NOT
MEET MEDICARE GUIDELINES, MEDICALLY UNNECESSARY CLAIMS
WERE PAID.

Reds   of syW??m CLU7i??Sused   to ihtijj   ikl!I@fl&   CkZ&LS Wt?lt?mt   CklK


Carriers in our sample were using automated screens, certifications of medical
necessity, and specialized processing units through 1991 to identi& and prevent
inappropriate claims. Regardless of the type of system use~ six carriers could not say
how many inappropriate claims had been identified in 1991 or the total dollar amount
they represented. The carriers either did not have mechanisms or procedures to
capture that information, were not equipped to sort information about ambulance
trips for ESRD beneficiaries from aggregated claims dat~ or the information was
extremely time-consuming and labor intensive to produce.

Two carriers did give us the number of inappropriate claims they identified in 1991
and the dollar amount associated with those claims. However, even these carriers did
not say whether the figures were related to ambulance claims for ESRD beneficiaries
or whether they related directly to the use of a particular system for identifying
inappropriate claims.

Automated screens had different functions and were used inconsistently by most of the
carriers that had them. In 1991, three carriers had screens. The first of these three
had a screen which suspended all ambulance claims for ESRD beneficiaries. The
second suspended any claims for non-emergency transports, and the third suspended
claims when there were more than six transports for the same beneficiary within 30
days. One of these three carriers said its screen is on whenever the HCFA mandated
workload permits. For example, its screen was on in 1991, off for part of 1992 and
back on in 1993. A fourth carrier had screens for ambulance claims, operating until
late 1990, which identified transports for ESRD beneficiaries and repe&ive bfig.
The ambulance screens were deactivated with HCFA’S knowledge so that the carrier


                                              5
could screen other types of Medicare claims. This carrier said the ambulance screens
saved an average of $291,000 per month.

Two carriers required certifications of medical necessitv for non-emergency transports
to dialysis. Certifications have a variety of formats. Some, for example, are checklists
printed by the ambulance company while others are letters to carriers on dialysis
facility stationery. What they have in common is the signature of a physician or other
medical provider and statements indicating that the patient needs an ambulance.

Two carriers had claims urocessin~ units s~ecializiruz in ambulance claims. These
carriers felt that specialized processors become familiar with the beneficiaries and can
spot irregularities or cloning. Cloning is the process of using a claim that has been
paid as a model for filling out subsequent claims regardless of whether the
circumstances of the transports were the same. One of the two carriers said if the
processors believe a beneficia~ is not bed-confine~ even though the claim says so,
they will call someone to verify the patient’s condition. Since most of their
beneficiaries are in nursing homes, a call to the nursing home settles the question.
Nursing homes have, at times, contradicted what was on the claim form.

While we did not perform cause and effect analyses, the carrier with the lowest
percentage (23) of medically unnecessary claims was the only one with a screen to
suspend ambulance bills if there were more than six transports for the same
beneficiary in one month. The carrier with the lowest percentage of dialysis-related
transports was the only one with a screen to suspend all claims for ESRD
beneficiaries. (The distribution, by carrier, of claims that did not meet Medicare
guidelines is on page B-6.)

Cimiim may have been rnirkd to beileve cti   were medicdy necewtwy when pmvidem
wed key phrum on cilim fom.s to give the appearance thattmmpoti was medica@
?lemWuy.

If statements providers use to fill out the claim form fit Medicare guidelines, the claim
will be paid. AU carriers said they consider provider statements on the claim form
regarding patient condition and diagnosis proof that transport is medically necessary.
One carrier, for example, cotisiders a transport medically necessary if the claim says
the patient has ESRD and is bed-confined. Other carriers said claims appear to be
medically necessary depending on the description of the patient’s medical condition.

Four of the eight carriers said they do not verify the providers’ claim-form statements.
Two others consider certifications of medical necessity a verification of claim
statements. The two remaining carriers believe its processors know the beneficiaries
well enough to spot irregularities in claims, and they may make telephone calls to
veri& unusual data.

While providers need Medicare coverage information if they are to submit claims for
covered service, some may be using key phrases directly horn the Medicare Carriers


                                            6
Mmualto ensure pa~entregardless        of the beneficia~'s condition. Most carriers
advise providers of the Medicare requirements for medical necessity through periodic
newsletters or special notices. One carrier said it refrains horn giving out wording
from the Carriers Manual. This carrier advises ambulance crew members to describe
on the trip report exactly what they see when they pick up a patient. Information
horn the trip report can then be transferred to the claim form. Providers, however,
can learn the phrases in the Carriers Manual tlom trade associations as weil as from
carriers.

In 1991, a carrier conducted a special ambulance project because providers had been
submitting claims without sufficient data. A significant number of ambulance claims
were denied that year because they were incomplete. The special effort to get
thorough information on ambulance claims has resulted in cleaner claims, according to
the carrier. But the carrier is also aware that this could mean they taught the
ambulance providers the right things to say to get paid. A fraud investigator with this
carrier said the need for ambulance sexvice to dialysis is rare, but the claim form can
fool the claims processor and fraud investigator alike.

While carriers rely on providers’ claim form statements, there is no guarantee that the
statements are truthful. One carrier described a claim that met medical necessity
guidelines for an ambulance because the provider listed the patient’s multiple medical
conditions. After the claim was paid, the beneficiary called to complain that the
provider, which was certified for basic and advanced life support ambulances, had
transported the beneficiary in a wheelchair van. Without the complain? the provider’s
statements would not have been questioned and payment for a false claim would not
have been detected.

Various    respondents   expressed   the opinion that once in a while evexyone--patients,
doctors,   nurses, social workers,   and ambulance providers--will bend a stow to fit
Medicare requirements for convenience or for a needy patient. Beneficiaries may use
ambulance transport for reasons that are financial, logistical, or for lack of an
alternative. Patients may be ambulatory or wheelchair capable but may not be able to
afford the cost of a taxi or wheelchair van service, especially if they have to travel long
distances. Some patients may be so debilitated that they cannot lift their own weight
and require two people to make the transfer to a chair safely, or once in a wheelchair
they cannot get down a flight of stairs. These situations are not covered under
Medicare guidelines.

Pat-payment reviinvsby carriers h not routhdy include ambuhnce traqxms              for
bemjkhrk   with ESRD.

Carriers do not routinely target ambulance claims for post-payment reviews. Most

earners use their post-payment resources to review other types of claims that

represent higher Medicare expenditures. One carrier that did an ambulance

utilization review in 1991 found 15 cases representing over $3 million in overpayments.

Unless carriers target ambulance providers for special post-payment audits or target



                                                7
ambulance claims for medical reviews, inappropriate   ambulance claims for ESRD
beneficiaries can slip through the system.

It appears that carriers do not review ambulance claims for ESRD beneficiaries for
two major reasons: either payments for ambulance transports are far less than
payments for other services, or carriers do not have a system for isolating and
examining ESRD-related ambulance claims.

In the post-payment stage, beneficiary complaints have helped five carriers discover
inappropriate ambulance claims. As mentioned previously, complaints from
beneficiaries have revealed that providers will sometimes transport the beneficiary in a
non-emergency vehicle and charge Medicare for an ambulance.

Other mechanisms that help carriers identify inappropriate claims include quality
assurance audits of staff’s workload. One carrier, for example, audits 5 percent of the
workload weekly, while another carrier audits 400 claims per month. However, unless
the workload is strictly ambulance claims, there is little likelihood that ambulance
claims for ESRD beneficiaries will surface in significant numbers. Carrier respondents
who mentioned workload audits did not specify what an audit entails and whether the
medical necessity issue is examined.

Seven carriers were of the opinion that more post-payment reviews would help in the
identification of inappropriate payments of ambulance transports for ESRD
beneficiaries. Without post-payment reviews, medically umecessary claims can go
unnoticed, and the magnitude of the problem will be unknown. The one carrier that
did not suggest additional post-payment reviews had recently established a system of
pre-approving transports.

Five carriers think focused medical reviews, known as FMRs, should be used for
ambulance services. The FMRs are a new type of post-payment review required by
HCFA In this type of review local data about a particular semice is compared with
national data. However, because other services have priority, carriers do not
anticipate doing FMRs on ambulance service in the near future. Carriers said they
will need more funding to increase the number of any type of post-payment reviews.

Since 1991, three caniem have adopted new systems to Lient@j inappyniute   ckizhm

When we conducted interviews in May of 1993, three out of eight sampled carriers
described changes to the systems they had used in 1991. Of the three carriers, one
began using automated screens in 1992 to suspend claims for manual review if the
transport was within 30 days of an ESRD procedure; and a second carrier expected to
have a specialized processing unit by the summer of 1993.

The third carrier adopted a system that was unique among all carriers in the sample.
In 1993 it began to pre-approve transport to dialysis for ESRD beneficiaries.
According to this carrier, the HCFA regional office had alerted them to abuses in the


                                           8
area of transports to dialysis. As a result, in 1992, the carrier stopped all payments on
these types of claims. It followed with a sumey of the medical necessity for transport
of ESRD beneficiaries. Telephone calls to beneficiaries revealed that some were truly
in need of transfer by stretcher while others rode to dialysis in mini vans or the front
seat of pick up trucks. As a result of the survey, ambulance providers are now
required to get a medical necessity letter from the beneficiary’s treating physician and
forward it to the carrier. Medical necessity letters are to include the patients’ medical
history, diagnosis, current condition, and reasons patients might be bed-confined. The
letters are reviewed by the carrier’s medical director who decides whether the
beneficiary’s transport to dialysis is medically necessary. Thereafter, claims for that
beneficiary are checked against a pre-approval list.

Of the three carriers who described systems established after 1991, the one with an
automated screen identified over 1000 inappropriate claims in 1992. The two other
carriers did not say they had a procedure to account for outcomes of the system.




                                            9

                  RECOMMENDATIONS


Because such a high percentage of Part B dialysis-related ambulance claims for ESRD
beneficiaries did not meet Medicare’s medical necessity guidelines, we alerted HCFA
to our preliminary findings in an informal briefing in February 1994. In response,
HCFA took the initiative to contact 43 Medicare carriers and collect their ESRD
ambulance coverage policies, which it then shared with us. Our review of the
information indicates that systems used by the eight carriers in our sample have not
changed since we collected our data in 1993. We therefore recommend:

%   HCFA should ensure thut chins meet Midicare coverage guideli.rux

We suggest the following targeted options as ways to address the problems described
in this report. For carriers with very high ambulance allowances:

      Alert them that utilization of ambulance senrice by ESRD beneficiaries is
      highest for dialysis-related transports, that these claims are for a small number
      of ESRD beneficiaries, and many of these claims are not medically necessaq.

      Alert them it is possible to identify, in a prospective manner, those ESRD
      beneficiaries with high potential for large expenditures for ambulance semices.
      Two methods for identifying these beneficiaries were described in the Office of
      Inspector General report, Ambulance Setvices for Medicare ESRD Benejkiati:
      Payment Practices (OEI 03-90-02131). One method looks at the number of
      days between the first and second trip claimed during the year. The second
      looks at the number of trips for which claims were filed within a fixed time
      period, e.g., 15 days.

      Identi& those with methods which ensure that transport for ESRD beneficiaries
      is medically necessary, and advise other carriers of these methods. Methods
      that are practical and cost-effective will vary depending on the carrier’s overall
      volume and other considerations. For example, a Carner with a relatively low
      volume may effectively. pre-authorize ambulance transport for ESRD
      beneficiaries going to dialysis. A carrier with high volume may prefer to
      electronically suspend, for medical review, ESRD-related ambulance claims
      when there are more than six transports in a month.

      Advise beneficiaries of the limited nature of the ambulance benefit and
      encourage them to call the carrier if the supplier misrepresents Medicare
      coverage. Carriers could send such a message to beneficiaries directly by mail
      and through national and local senior citizen groups and newspapers.

      Advise ambulance companies of Medicare’s limited coverage of ambulance
      service and the consequences of submitting bills for transports that are not


                                          10

        medically necessary. Carriers could distribute   notices to providers   directly and
        through national and local trade associations.

   �	   Advise dialysis-facility physicians of the limits of Medicare’s coverage for
        ambulance service as they are often the physicians called upon to sign
        certifications of medical necessity. Carriers could include this advice in their
        provider education material.

  �	    Periodically, conduct a medical necessity review of ESRD-related        ambulance
        claims.

  �	    Conduct studies to determine: (1) what percentage of ESRD beneficiaries
        being transported to dialysis in ambulances could use wheelchair vans or some
        other non-emergency vehicle; and (2) whether dialysis facilities would cover the
        cost of ambulance service, for ESRD beneficiaries who need it, for an add-on
        to the composite rate Medicare pays for dialysis.

We also suggest that HCFA      could:

  �	    Advise beneficiaries of the limited coverage for ambulance semice through 7he
        Guide to Health Insurance for People wi~hMedicare.

  �	    Z7zeMedicare Handbook already has a section which explains the limited
        ambulance transportation benefit. However, the section on fraud and abuse
        mentions ambulance providers only indirectly-under the umbrella of health
        care service provider. Since beneficiaries may not connect the two, perhaps
        ambulance transport could be identified as an example of a health care semice.

We have already referred to our Office of Investigations all cases that involve possible
fraud. Details of our medical review of claims are available should HCFA wish to
review these claims or take any action.

COMMENTS FROM HCFA

The HCFA concurs with our recommendation that they ensure that claims meet
Medicare guidelines. They have listed steps they are taking to address our
recommendation.    Appendix C contains the full comments.




                                            11

                                    ENDNOTES





1.	   Persons with ESRD are entitled to Medicare under 1972 amendments      to the
      Social Security Act.

2.	   American Ambulance Service of Penn.ylvaniay Inc. v. Su/Iivan as summarized
                                                                              in
      Medicare and Medicaid Guide (Chicago, IL    Commerce Clearing House, 1991),
      paragraphs 3,148.56 and 39,250.

3.	   Office of Inspector General, Ambulance Services for Medicare End-Stage Renal
      Dtiease Beneficiaries: Payment Practices, 0EI-03-90-02131 (Washington, D.C.:
      U.S. Department of Health and Human Services, 1994).

4.	   This percentagecould be lower if, as is often the case, ambulance companies
      have more than one provider identification number.




                                        12

              APPENDIX                        A


         MEDICARE CARRIERS MANUAL

AMBULANCE COVERAGE AND LIMITATIONS



Section 2120. Ambulance Sexvice ..................................A-2

Section 2125. Coverage guidelines for claims ............A-lO




                            A-1

      .-

      ‘ “-75                     C3tTERAGE id~ LxITATIOI?S
                                                                                         :Lzo.1


2120.  .’.!ULM{CESERVICE

Reimbursmeenc may be made for expenses incurred for ambulance senice

provided the conditions specified in the fclliowingsubsections are mer.

(See $5 4115 and 2125 concerning instructions for processing anulance
semice claims.)


 2129.1        Vehicle     and Crew Requirements

A. Eu3 VehicLe--- Ihe vehicle must be a specially       designed and equipped

auzomocnle or other vehicle   (in some areas of the United Stit8a      this

might be a boat or plane) for transporting      the eick or injured.    It must

have customary patient   care equipuent including    a atrcmcher, clean

li.mens, first aid suppUes,   oxygen equipnent,    and it must also have such

other safety and lifesaving   equipaent as is required      by State or local

authorities.


B. The Crsw=--lhe ambulance crew muat consist                   of at leaat *        members.

Ihos-embere               charged uith the care or hamdMng of th9 P8fieIMSU5t

include one individual         uith adequate first aid training,              i.e.,  trainimg

at least equivalent         to that provided by the standard and advanced Red

Cross first     aid courses.        Training “eqtivslent~        to tie standard and

advanced Red Cross first          aid training      courses includes ambuhnce eetice

training     and experience acquired unmilitary              sertice,     mxcceseful

caupletion     by the individual       of a cmqxirable first          aid course furnished

by or under the sponaorsbip           of state or local authorities,             an SdU0at10na2

institution,     a fire department,        a hospi~,       a professional        0rgSdZStACZ2.

or other such qualified         organization.        On-the-job     training involving the

administration      of first    aid under the supm+sion             of or ticonjumctlon

with trained first        aid personnel     for a period of tie           sufficient    to assure

tie trainee’s      proficiency     in handling the wide range of patient               care

sertices     that may have to be performed           by a qualified       attendant    can

also be considered        as ltequivalent     training.N


c.	   Verification of Canpliance---In determining whether the vehi.clea
and person?oi o: eacn supplier meet all of the above requirements~
carriers   may accept the supp~erlg stitement (absent information   to the
contrary)        that    its
                      vehicles and ~rsoxlnel      meet all of the requirmemts
if (1) the stitau~t     descfibes    the firgt aid, safety,      and otlier mt?!lt
care items with which the veticles        are equipped,   (2) the statemmt ahoWS
the extent of first aid trai~ng        acquired by the personnel      assigned ti
those vehicles,    (3) the s~~ellt       con~ina   tie supplier’s    agre~~t     tO
nOtify the carrier    of any ch~e      in operation   which could affect the
coverage of MS ambd.ante soryj.ces,        and” (L) the information protided
indicatee  that the requirements      are met.    TIW setemwntmuat       be accaed
bydocumen’tary   evidence tit     the ~~nce        has me eqtip~t        required by
State ad local authorities.         mcumen-ry etidence could include a utter


Rev. L79 , 477                                                                  2-75




                                               [A-21

                                    COVERACE
                                           ANDLIMITATIONS                       i2-75


fran such authorities,     a copy of a IAcense, penmt,   certificaw,      etc.            ,
issued by the authorities.      l%e statement and aupportmg      documentation
would be kept on file by the carrier.

Uben a aupptier does not    sutmit such a s-tement or ~memr           there is a
question about a suppfier’ E canpliance with any of tie a“~~ requirements
for vehich and crew (ticiuding       suppliers  who have cccwietid    the statement),
earners    should take a~ropriate     action inckiing    ~ mere necessary,      on-cite
inspection   of tie vehicles end verification      of the q~cationa          of
personnel   to detexmine whether the ambulance eermce        q~fies      for
reimbursement under Hedicare.       Since the requirements dmctibed       above
for coverage of ambdance     se-coo     are applicable    to tie o~nU      operation
of tha ambulance wpplier~ e service, it is not raqUlrOd tht illfOxmetion
xwgardlng permnnd      and vehicles   be obtained on an ixldi?idul     trip baais.

D.     Ambulance of Protiders        of Semrices. --TIM Part A   Intmnmiiary      Is
reaponaihb       for     the proceaelng oi ctin    for ambulance     *-cc  furnlehed
b    PS*Cimq              h-dtib~ s~led       n-i=     fac~ities     =d h~e h=lth
agencies end haa the reaponsibUlty     to detexwdne the caapUance   of
providar~ e amhuMnca end creu.    Slate prctider   amimlance eemces    furnished
M=er      arr~           tam with   euppliers can be covered   CIXQT If the euwlier
-te   W abve reqairmenta,   th PM% A Intemedlary                   may aek *O Ca~er
* identify tboao aqpliers who meet t&e requirements.

&                                mentioned abova, tha amklance must have
                                    .--Ae
cnatazery      patient            and first aid aupp~es.
                        care equi~t                             Renaable devices
                                                                                                     ~:
and equipient                      neckboerda and irtfUtable
                    smob as backboards,                           leg and am
aplinte are ccnaidered  part of the general smbu&nce     sefice     and wxd.d
be included in the charge for tie trip.    on the otlier lmnd, a separate
reaaonahle charge baaed on actual quantities used may be reco~zed          for
nonreusable item and disposable mtppues such as oxygen,         gauze and
dreesinga  required in tho cam of the patient during MS trip.

2120.2 Nacesaity          and Reasonableness. -.~ be conred,       ambulance     sefice
mat be medicaily          neceeeery and remscnable.

AD   b-mity     for the Serrice.--?4edical      neceaeity   is established     uben
W@ patlmt~ a caditicn     iS such that US. of any other method of tranaportati=
i8 contraindicated.    In any caae, b tia           sme me-     of tramaportation
other thamanaak&nOe       could b utilized        without endangering      the indivldd.’8
hadth,   whethe~ or not 8-      oar    t~rtatioxt         ia actually     available,   no
~~ant     =7     bO made for    ambulance eervice.

k    ti8UCXd2kM86 of the Ambulance Trip. --A claim may be denied on
we ground that th euso of ambulance ee~ce          uau unreaaoneble in the
treabnent   of the Ilheaa    or injury involved (5 23G3; GOtwithstandin~
thO fact th8t tn. pe~antt a co~~~          ~ ~VO c ~tr~~catad                tha
uae of other meene of transportation.        Tha carfier     ehould use discretion
uhen appl@ig tbia pxhciple.         It is expected that generally        its
app~CatiOn    ui~ ~ ~~d           ~ those i~~ea        ~e~     a ~~er         or
prmrider repeatmlly    d~~stratea     a ~t~m     of ~econ~ca~         practice
-    tO those mtid~l        C~~a ~e~      tie ~ceas      coat iS large.
                                                                                                           A
2-76                                                                           Rev.    179 ,   ~77    ..



                                             [A-31

    10-83                            ~C)VE~A~E       .+Nil LIMI’I’ATIONS                         ‘2120.3



2120.3 The Destination---- AS a generai ruie, only 10CSJ trans~rtation           bY amb~nce       :s
ccvered. ITIis mans that the patient must have bee~msported              to a hOSpltal Or a skilled
nursing home ss defined in 5 2125 item 3(a) whose locality (See paragraph E below)
encompasses the place where the ambulance transportation               Of the PtItlent began and
which wo~d ordin~fiy be expected to have the appropriate facilities for the treatment of
the injury or iiine= invoived.           In exceptional     situations    where the ambulam
transportation    originates beyond the locality of the in.StitUtlOn [0 Which the benefiC:­
was transported, full payment may be made for such services ON if the evidence clearq
establishes that such lnstltu~lon 1s the nearest one With aDWODriate facilities (See F
Mow).       ‘I%e institution to which a patient is transported       need not be a oarticipati~
institution but mm meet at le~t the retirements          of 1861(e)(l) or 186 l(j)( 1) of the Act.
(See S 2100.3 A ~d B for an explanation of these requirements.)           A ddm for ambulance
service to a ~ticipting       hospi~  or siciiled nursing facility should not be denied on the
Wo~dS that there is a nearer nonparticipating                 institution   having ap~opriate          facilities.
(See C below for destination exceptions.)

       A.     institution to Benefickv%        Home.-Ambulance         servi-      from an institution to the
beneficiary% borne is covereci when the home is within the hdity                       Of SUCil iILStitUtiOnor
where the bmwcisr~s            home     is outside     of the    iocality       of ~~    i~itution    *    the
k3titUtiOn9 in relation to the home, is the nearest one with apprOp*te                     fac~ties.
      B. Institution to Institution.+ccaaionally,         the instituthl  tO WhiCh the patient is
initially taken is found to have ~ade~te        facilities to provide the required care and the
@tient k then transported to a second institution having a~rkte                faCtitieS. “In such
cases, trwp~ation       by amb~ce
institution to WhiCII the ~tient
                                          to ~UI institutions
                                     is tM@   truferred
                                                                  would be covered provided the
                                                             is determined to be the nearest one                     (.

with appropriate fac~ti~.       ~ these CRSeS,tr~wrtation          from such second im=on       to
the ~tient’s home could be covered if the home is within the 10*tY served by that
institution, or by the first ~titution    to whi& tie patient was tIlken.

r      C.     Round-Triu for Specialized
for a hos~it~ or     ~rtici~ting
                                      services.-+ound-trip
                                      s~~ed
                                       n~~
                                                                 ambulance service is covered
                                                 facifity in~tient   to the nearest hos~itai or
nonhospitai &eatment fac~ty, i.e., a cfic,      therapy center of physician’s OffiCe tO obtti
necessary diagnostic ~d/or thera~utlc    se~lceg (~ch ISSa CT scan or cobalt therapy) nOt
available at the instituti~        where tie   benefici~y     is ~   inpatient.     (See 54168.)




Rev.        !O04                                                                                         2-77
                                                      [A-41
    21203 (Cont.)                         COVERAC3EAND LIMITATIONS                                    ! O-83

rbrri~      wiii monitor this by perfofmim3 a Priodic pos~ym~t    review wi~ Wpropriate
   madicai staff auMance to determine whether the. frequen~ Of ~ch a~-e          services
   for a ~icum     petienq together with the medical conditio% ind~cat~  ~ere is anotier
    preferred        medical course      of treatmenL       ‘l’he camier shouki not mqu-      transfer of
    hoqital @Mm,s            to RIIIOtherhoqitd     providhg tie wWired *rv~e but *CUM
                                                  capable    of
    deny mch ambulance service claims in the future. For @tien@ in SNFS ~   thOSRrdd~
    at home the attendirg physician *CUM be asked to f’urrt~ additionti       information
    supporting the need for ambulance service nlative to the option of admksion      to a
I_treat  ment  facility.

        D. Partial PaymenL-Where ambukwe service exceeds tie Umits defined in A, B
    and C abov* refer to W12S item M fce instructions on partial eaymen~

         E. boali~o-’ltte         term %oajity- wtth reqwet to ambulance service means the
    senrice area ~                   the institution from which individuals nmmally come or are
    eqted           to come for h~ital     or 8kiUed nurS@ eaWiC-

    Examohx           Mr. A ~omes iIl at home amj _        ambulance service to the hqitd
    ~-               communily in whioh he Wee has a 35 bed hoqiti   TWOkuge metrOPciitan
    ho@als          are &oated ~rne dbtame from Mr. A% community but th8Y regtdariy pmn?ide
    hoqital tied    m the 00mnunity9 residenw” me community fs within the WcaMyN of
    the metropolitan hO@W and -t          ambulance service to either of these (ss weil as to
    the 100al community ho~ital) is cavered

r -. ..—
       ...
         . —.
           F.   A         mointies.-me
                            te              term wqpropmte
                                                                     ,.*
                                                               lacmrl=*
                                                                       ——,,,-,——
                                                                          IT=UUSUK
                                                                                  “   —————    AL-.       AL-
                                                                                                          UIU
    blatftutkym        ~   @quiP@ to provide UN!needed hoqital or dcilkl nursixq ~                         for
    the illn~ or injury Invoked.   In the case of R hoqi~ it deo means that a phgsioian      or a
    physioian apeeiaiist @ availabb to provide the n~           cam required to treat         the
    patiant~ corditiom However, the fact that a prthuiu          physician does ce does not have
    staff privileges in a hoqital is not a consideration in determin@ whether the hoqital has
    approprkte facilities. ‘ITIw amb~e         service to a mom distant hoqitai solely to tWd a
    patient of the ~rv~e of a specific physician or physician specialist does not make U’Ie
    lIo@al in which the physich tMR staff priyilegeg the nmst           ho@al   with Spp?OpriLM?
L   facilities.

    l%e fact that a more dMant institution is better quipped, either q@~tive&               ~
    quantitatively, to care fcc the ~tient doea not ~t     a findirqg that a ckmr inStiMiOIi
    does not have ~m~~            ~~t~~       Mwayer, a ~     impediment barring a p8thl’ltk
    admbim WOW permit a ~@q            ~t  tie M-n      du not have ‘~iate        facilitie&”
    For examplq the nearest t@emdoeb         ho@ai may be in another State and that State9
    law preohdee        admission of no~iden~




    2-78                                                                                               Rev. 1004



                                                        [A-51

  9fj-9n                      COVERAGE AND LIM~ATIONS                            2120.3(ConK.j

EXMIPLE:       .Mr. A becomes U at home end reqwes        amb~ce      servi~   m the hospital.
               The hospltais servicing the commuxutv in Winch he l.iv~ are Capable oi
               promding general hoqxtai care. However. .Mr.A req~es Immediate kidney
               dialyms and the needed equpment K not ava~ble, in ~Y of th=e hospmls.
               The semnce area of the nearest hospital M-g          dl~~~     eq~Pment does not
               eneompsss the patient’s home.         Yevertheiess,     ti this case, ambulance
               service beyond the locality to the hospiti       With the equipment is covered
               since it is the nearest one with appropriate facilities.

     G. Ambulance Service to Phvsicisn’s Office. -?hese       trips are covered only under the
following circumstances:

           o   The trips meet the criteria of S2120.3C, or

         o    while &ansporting a patient to a hospiti.      the am~~ce  St~PS at a
physician%	 office because of a patient’s dire need for professional attention, and
immediately thereafter, the amb~ce   continues to the hospital.

    H. TYansoortation Reouested bv Home Health Asencv.-Where             a home heaith
agency finds It neeessery to have a beneilcisry transported by ambulance to a hospital or
skilled ntmmng facility to obtain home health services not otherw~e aveikble to the
individua& the trip is covered as a Part B service oniy if the above coverage requirements
are met. Such &snsportation is not covered es a home heaith servtce.

      L    Covermze of Ambulance Service Furnished Deeeased Beneficierv.-An individual
iS c~d~ed       to have .exp~ed ss of the tune he xs pronounced dead by a person who is
legally authorized to m&e such a pronouncement, usually a physician. - Thirefore, M the
beneficiary was pronounced dead by a iegaily authorized individud before the ambldance
was tailed, no program payment is made. Where the beneficiary was pronounced dead
after the ambulance was called but before pickup, the service to the point of pickup is
COVered. If otherwise covered ambulsnce services were furnished to a beneficiary who
was pronounced dead whfle e~oute to or upon ~riv~ at the destination, the entire
ambulance services are covered.

     J.   Ambulance Tr~oort.atjon     to Rend Di~~is    Facilitv Located on Premtses Of
Hosoltal.-A rem ci@ysLs iac~ty may ~ apwov~         to participate   m the en~tage  renzu
disease rxozram as a oart of a hosmtai or es a nonprovtder.     Where the factitv ~ been
SPpSOV~u-a part of k hoqxtai, it’ meets the desti&tion requirements of an kstitutlon.
Even where the facility hss -n    approv~ u a nonpro~der, it may be determmed to meet
the destination requirements for pmpoaes of ~buiance          service coverage und- the
following circumstances:




Rev.   1350                                                                        2-78.1




                                            [A-61

     2120.3 (Cont.)                     COVERAGE AND LIhlITATIONS                                                06-90


                 o      The facility is iocated on or adjacent     to the Premis=         of a hospital;

               o     The facility furnishes services to patients  of the h~iti    e.g., on an
     outpauent or emergency basis, even though the facility is Prim~fiY ~ oPer&tion to furnish
     dialysis services to its own patients; and

                        There is an ongoing professional relationship between the two facfities.                   For
     example, ~he hospital and the facility have an agreement that pro~des for physician staff
     of the factity to abide by the bylaws and regulations of the hospital’s medlcd staff.

     Do not reopen or change a prior determination   that the facMtY iS a nonprovider for
     approvsJ purpos=, even though it is found to be sufficiently re~ted to tie hoapitaL to
     meet the destination requirement for ambulance service cove!raget ti~                       th~e has been a
     significant change in the relationship          between     the hospit81 ~d          the factity      since the
     faciiity’s certification.

     A beneficiary receiving maintenance dialysis on an outpatient     b=k & not ordinarily ill
     enough to requxre ambulance transportation for dialysis treatment. This is so whether the
     facility IS an independent enterpmse or part of a hospital Thu% if a eiaim for ambulance
     serviees furrushed to a maintenance dialysis patient does not show that the patient%
     caxiition requires ambulance services, disallow it.       However, if the doctunentation
     submitted       with the claim shows that ambulance         services     is requirtd, determine whether
     the facility      meets   the destination    requirements      under     the ambadance serviee benefit
     described.


r    2120.4 Air Ambuliince Serviees.+edicaily
     covered servms regarcikss of the State
     approve dims
                                                   appropriate air ambulance tr_t&tion
                                                 or region in which it is rendered. However,
                                                                                            is a

                      only if the beneficiary% medicai condition is such that transportation by
     either basic or advanced life suppcrt land ambulance is not app@Me.

          A. Covemre Requirements.-Air             ambulance transportation services, either by means
     of a helicopter or iixed wmg ucra.ft,         may be determined to be covered oniy if-
                 0 The vehicle end crew requirements          des~~          in 52120.1 are meu

                 o The beneficiary% medical condition rec@ed                 immediate and rapid ambulance
     transportation     that could not have -n      ~ovjded      by bd       ambulance;    and elth=

                      T?Aepoint of pi- is inaccessible by land vehicle (this COX’IditiOn
                                                                                      couid
     be met in Hawa@ AIasjq and in otha remote LX sparsdy popdated areas Of the
     cmtinentai United States), or

                            Gred disma           tX other   OLIUkkS (for example, h-w                   ~flic)     =e
     bvoived in getting the patient to the nearest                hospital     with apg’O@lte          fa~~=        ~
     -bed        in subsection i).
L





     2-78.2                                                                                            Rev.      1350
         16-afl                          COVERAGE AND LIMITATIONS                          2120.4 (Cont.)

             B. hledica.i Amrooriateness. —:Medical appropriateness    is onlY -tablished when the
       benef iciary’s conciltion M such that the time needed to transport a MneficiUY by land, or
       the instability   of transportation by land, poses a threat to the bene~ici~Y~ survival or
       seriousiy endangers the beneficiary’s heaith. Following s an advisorY Mt of e=mpl-         of
       cases for which air ambulance could be justified. The iist is not inci=ive of ti situations
       that justify air transportation,    nor is it intended to justify air manspormtion     in all
       locales in the circumstances listed.

                  o   Lnhacramd bleeding -      recpring   neurosurglcai   intervention;

                  o   Cardiogenic shock;

                  o   Burns requiring treatment     in a Burn Center;
                  o   Conditions requiring treatment in a Hyperbaric Oxygen Unit;
                  o   Multiple severe injuries; or
                  o   Life-threatening    trauma.
            C. Time Needed for Land ‘l%nsoort..-lliffering        Statewide Emergency Medieai
       Services (EMS)systems determtne the amount and level of bamc and adv~-         life suppxt
       land transportation avaiiable. However, there are very limited emergeney c== where
       IaIKItransportation is available but the time required to tr~t      the patient by land as
       ~        to air endangers the beneficiary% life or heaith. As a general guideline, when it
, -.
       Wouid take a land ambulance 30-80 minutes or more to transport an em mcv            patient*
       cauader air transportation appropriate.                                                              :
(
           D. Appropriate Facility.-It   is required that the beneficiary be transported to the
       nearest hospital with appropriate facilities for treatment. “ The term ‘appropriate
       facilities” refers to units or components of a hospital that are capable of providing the
       required leveJ and type of care for the patient% flhss and that have available the type of
       physician or physician specialist     needed to treat the beneficiary% c(XKiitiOn.       h
       determining whether a particular hospital has appropriate f acfities,     take into account
       whether there are beds or a specialized ceatm~t    unit immediately available and whether
       the necessary physicians and other reievant medical personnei are available in the hospital
       at the time the patient is being transported.    ~    fact that a more distfint hospital is
       bett~ equipped does not in and of itself w~r~t    a finding that a ciosff hospital does not
       have appropriate facilities.  Such a finding is warranted, however, if the beneficiary%
       *tiOn     requira a higher levai of trauma -e   or OthW spaciaiized service available Ody
       at the m=e distant hospitaL ~




       *VO   1350                                                                           2-78.3
 2120.4 (Cont.)                COVERAGE     AND LIMITA’TIQNS                            06-?0
                                                                                                 ~



r    E. Hosoital to HosDitd    Transoort.-Air  ambulance transprt    ~ covered for transfer
of a patient !rom one nospltai to another if the medicai appropriateness
that is, transportation by ground ambuiance wouid ends.ng- the beneiic~y~
                                                                           =it=~   Me met,
                                                                                 heath and
the transferring hospital does not have adequate facilities to Provide tie m~c~ services
needed by the patient. Exampies of such services imiude bun uni*t mdtic          me   units,
and   bauma units. A patient transported from one hospital to ~ofi~        h~i~     is cOVered
ody    if the hospital to which the patient is @ansferred is the neuest   one with appropriate
facilities. Coverage is not avaiiable for transport from a hOSplti    ~able    of trut@   the
patient beeause the patient and/or his or her family prefers          a specific hospital or
physician.

     F. Special Coverage Rule.-Air       ambulance services are not COVUed fOr transport to
a facility that is not an acute care hospit& such as a nursing fttctity, physician’s office or
a beneficiary% home.
     G. SPecial Payment Limitations.-If    a determination is made t~t transport by
ambtxlance was ne~y,       but w    amo~~     service wouid have sufficed, payment for
the air ambulance service k baaed on the amount payable for land trlLnspcWt,if ks COStiy.

          If the air transport was xnedidly appropriate (that is, land tr~*tion        was
contraindicated and the beneficiary required air transport       to a h06Pi@?      but tie
beneficiary could have been treated at a nearer hospital then the one to v/hich he or she
was transported, the air tr~~rt    payment K Mited   to the rate for the distance from the
point of pickup to that nearer hospital.

     IL Documentation.+btain       adequate documentation      of the determtiti~     of

L
mC!diC8iappropmateness for the air embulsnce
~ces    are to be reviewed by your medical staff.
                                                  service. All claims for air afnbuiance
                                                                                                 c




2-78.4                                                                           Rev.    1350




                                              [A-9}

  7-78                                 COVERAGE AND L,IlfITATIONS
                                                                                                                 2125

 2125.     ~VEU      GUIDELINESFOR AM8ULJUUZSERVICE ~
 Relmburmmenc     may be made for expenees    incurred by � patient for
 abuiance     aemrlce provided condicione    1, 2, and 3 in the left-hand
 coiwn    have been met. The right-hand      column indicstee  the documen­
 tation   needed   co tstablish that  the condition   &aa been met.

                  Condittoris                               Reviev         Action

 1.	   Patient wee transported    by            1.   Ambulance supplier la listed  in
       ea �pproved supplier    of                    the carrier’s  table of �pproved
       tiamca      service.                          ambulance compeniee.    (5 2120.lC)

 2.	   The patient vaa �uffering                2.   (a)       Presw         the requirement
       frmms     iUnaes     or inju~                          vas mec if            file     �hovs the
       vhich contraindicated                                   patient:
       traneportatioa     by other
       ~.        (s 212a*zN                                    (i)     Wee craneported              la an
                                                                       emergency situatioac
                                                                       e.g.,  aa � remit    of
                                                                       an accident,  injury,
                                                                       or acute U2nem.      or

                                                             (ii)	 Needed            to be restrained.
                                                                   or

                                                           (Iii)       Wae unconscious
                                                                       shock, or
                                                                                                    or in
                                                                                                                        (
                                                             (lV)      Required            oxygeu   or
                                                                       other emergency trut-
                                                                       aent   On thd          W-    tO    hi.e
                                                                       destination,            or

                                                               (v)     Had to remain immobile
                                                                       becauee of a fracture
                                                                       that had not been                 � et
                                                                       or the pomsib~llty                 of
                                                                       �    fracture,         or

                                                             (vi)      Sustained            an acute
                                                                       �troke or myocardial
                                                                       infarction, or

                                                           (vii)     Wee ~eriencing
                                                                     severe hemorrhage,                   or

                                                       (viii)        Waa bed confined   be-
                                                                     fore ad after    the
                                                                     eabulance trip,   or

                                                             (ix)      Cauld be moved oniy
                                                                       by �trencher.




Rev. 3-672
                                                                                                         2-79
       5 (Cent. )   COVERAGEANDLIMITATIONS                                 7-78




                                         (b)	    In ths �bsence       of any of
                                                  the conditlonm      liaced    La
                                                  (s) shove additional
                                                 dOCU=@-tioU         shouid be
                                                 obtained     to establish
                                                 medical     need where the
                                                 evidence     indicates     the
                                                  exietencc      of   the circw­
                                                  stexsceo listed       beiowx

                                                  (i)    P8tleat’8 Condttion
                                                         wasid not ordimrily
                                                         require movemmt by
                                                         stretcher  or

                                                 (M       Tho Individual    WCS
                                                          riot �dmitted � s �
                                                          hoepital   inpatient
                                                          (e%cepc in     accident
                                                          cee8e)o or

                                                (iiA)     The aabulance         wee
                                                          used solely      becmuo
                                                          other uuae       of    trens­
                                                          portacion were
                                                          uaevailable, or

                                                 ( iv)    The indivdud  mereiy
                                                          needed asaistsuce   in
                                                          getting from hia roa
                                                          or home co a vehicle.




2-80                                                          ~ev. 3-672
                              [A-II]

     10-83                            COVZR.4GE   AND LIMITATIONS                2125( tinL)

                                                            (c) Where the information
                                                                 indicates a situation not
                                                                 Listed in Z(a) or 2(b)
                                                                 above! refer the case to
                                                                 your supervisor.

3.       The patient was transported                  3.    Claims should show points of
         from and to points listed                          pickup and detktion.
        below. (S 2120.3)

        (a)         From patient% residence                 (a)    (i)   Condition met if
                    (or other place where                                trip began within the
                    need arose) to hospital                              institution  service
                    or skilled nursing home.                             area as shown in the.
                                                                         carrier% locality guida

                                                                  (ii)   Condition met where
                                                                         the trip began outside the
                                                                         institution% service area
                                                                         if the institution wee the
                                                                         nearest one with
                                                                         q~mkte         facilitiw
                                                                         Refer to supewisor
                                                                         for determination.

NOTE:	        A patient% residence is the p~e         whe~ he makes h~ hOme d              dw@lk
              Permmently, or for an extended period of tinm        A Stilled numifx home is one
              which is listed in the Directory of M~icai Facilities as a participating SlfForas
              an institution which meets section 1861(j)(l) of the law.

Nom:	         A claim    for ambulance service to a participating      hospital or *illed nurs~
              facility should not be denied on the grcx!nds that there ~ a n-r
              nonparticipating institution having appropria~ facilities.

        (b)         Skilled nursing home to a               (b)    (i)   Condition met if pickup
                    hospital or hoqital to a                             point is within the
                    skilled nursing hom~                                 semrice area of the
                                                                         destination as shown in the
                                                                         camier~ locaiitY @d*

                                                                  (ii)   Condition met wham the
                                                                         Ptiw point is outside
                                                                         the service area of the
                                                                         destination if the
                                                                         destination instituti~ was
                                                                         the nearest one with
                                                                         appropriate faciliti-
                                                                         Refer to supervisor
                                                                         for determtition.



Rev.         1004                                                                              2-81



                                                  [A-121

    2125( ~nt.)                     COVERAGE AND LIMITATIONS                                            10-83

           (c)	   Hospital to hospital                         (c)     Condition met if the dis­
                  or skilled nursing home                              charging   institution     was
                  to skilled nursing home.                             not an appropriate faciiity
                                                                       and the admitting institution
                                                                       was the nearest one with
                                                                       appropriate facilities.

           (d)	   From a hospital or skilled                   (d)     (i)   Condition met if patient%
                  nursing home to patients                                   residence is within the
                  residence.                                                 institution% service area es
                                                                             tiown in the carrier%
                                                                             locality guide.

                                                                      (ii)   Condition met where the
                                                                             patient’s residence is
                                                                             outside the institution%
                                                                             samice area if the
                                                                             institution was the neamW
                                                                             one with appropriate
                                                                             facilities. Refer to
                                                                             supervisor for determination

I          (e)	   Round trip for ho~ital
                  or participating skilled
                                                               (e)	    ~ndition met if the medically
                                                                       nece=xy diagnostic or
                  nursing facility                                     thenqxmtic service required by
                  inpatients to the nearest                            the patient% condition is not
                  ho@ital or nonhospital                               available at the institution
                  treatment facility                                   where the benefickry is an
                                                                       inpatient.



           NOTE:        Ambulance service to a @ysician’s office or a @ysician+ticted clinic is
                        @ covered (See 5 2120.3G where a stop is made at a phwicimk of fke
L                       enroute to a hospital and 2120.3 C for addt ionai exceptions.)

    4.	    Ambulance sewices involving ho~ital admissions in Canada or Metico ~                          ~e~
           (SS 2312 ff.) if the following conditions are met:

           (s)    The foreign hc@italization   has been determined to be cove~;             ati

           (b)	   The ambulance service meets the coverage requtiments        sat forth in S5 2120-
                  2120.3. U the foreign hospitalization has been determined to * c~~         on we
                  ~k    Of emergency services (S 2312.2A) the necessity requirement (~ 2120.2)
                  ati the destination reqdrernent   (s 2120.3) are considered met.




    2-82                                                                                                  Rev.   1004




                                                     [A-13]

     ‘)5-9!                   cOVE=GE   hill LIFfITATICXS                         2130


               Hake Dartial navment f== othewLae covered *ulance
                5.                                                      se=lce which
 exceeded  limits defines Ln ~tem ~. ~clatis supervisors are to m-e       ail par~lal
 uavmenr  cietermlnat~ons. }   3ase c.ie payment on c?.e amount payable had the
 ~a;ienc been transported:    (1) from the pickup point tO the nearest appropriate
 facility, or (2) from the nearest appropriate facility        to hLs/her    residence
 where he/she is being returned home from a di~tant    institution.    (See S5215.2.)


 2130.




-.       1391                                                                   2-83




                                          [A-14]

                                                                                          ..:
                                                                                         .,.,.
                            APPENDIX                   B


                                  METHODOMIGY

SAMPLING

We selected a sample of ambulance    claims for ESRD   beneficiaries   as follows:

  �	   Using the Medicare  Status Code, we identified all ESRD beneficiaries with
       1991 Part B claims in HCFA’S Common Working File (CWF).

  o	   Then all 1991 CWF ambulance claims were selected for these beneficiaries
       based on eight national ambulance codes (base rate codes AOO1O,A0220,
       A0223, A0150, and A0222; mileage codes AO020 and A0221, and a
       miscellaneous code A0999).

  �	   The ambulance claims were then summarized by Part B carrier, and we arrayed
       the 56 jurisdictions of all 36 earners by total allowed payments. Two carriers
       were then excluded: Maryland Blue Shield (because of a number of active
       investigations) and the Railroad Retirement Board (because of the large
       geographical area that it covers). The total allowed amounts for all earners
       was $101,175,828. Without Maryland and Railroad the total was $97,383,189.
       From the remaining 54 carrier jurisdictions, we identified the top 16,
       representing 87 percent of the total ESRD ambulance allowances for 1991 or
       $85.3 of $97.3 million.

  �	   We employed a two-stage Rao-Hartly-Cochran sampling technique to randomly
       select eight carriers from the top 16 and 35 ESRD ambulance claims within
       each carrier for a total of 280 claims. At the first stage, we used random
       numbers to group the top 16 carriers into eight groups. This produced eight
       groups of two carriers from which we selected a carrier with probability
       proportional to size. Size was measured by the number of claims corresponding
       to the eight ambuiance codes given above. The eight carriers selected for the
       sample were California Blue Shield, Florida Blue Shield, Kentucky Blue Shield,
       Massachusetts B1ue Shield, Michigan B1ue Shieid, New York [Empire] Blue
       Shield, Pennsylvania Blue Shield, and Texas Blue Shield.

 �	    We selected a simple random sample of 35 ESRD ambulance claims for each
       of 8 sample carriers for a total of 280 claims representing 277 beneficiaries.

Of the 280 sampled claims, 180 transports were dialysis-related, 62 were non-dialysis
(e.g., hospital emergency room), and 38 were unknown (the ambulance providers
associated with these 38 claims were either out of business or under review by the
OIG’S Office of Investigations).



                                         B-1

DATA COLLECllION

We collected information about claims in our sample from a number of sources.
These included Medicare carriers, ambulance providers, dialysis facilities and
physicians.

We conducted structured interviews with each of the sample carriers regarding

coverage policy, claims processing, identification of non-covered transports,      detection

of overpayments,  and provider education.      We provided carriers with the interview

questions in advance. The carriers sent us documents to support their interview

responses and copies of the sample claims with any supplementary          documentation.

An example of supplementary      documentation    is a physician’s statement that the

ambulance trip was medically necessary. In the carrier and ambulance industries these

statements   are called certifications of medical necessity.


The certifications of medical necessity were either ambulance company           forms that
were completed and signed by a physician or they were letters written          by dialysis
facility physicians on the facility’s letterhead. Most of the certifications    in our sample
were signed by physicians. A few were signed by nurses, and one was            signed by a
social worker.

We collected data from the ambulance uroviders associated with our sample claims.
These respondents answered a questionnaire about the claim and provided us with
documentation of the transport, including, but not limited to, its origin and destination,
whether it was scheduled in advance, and whether it was round trip or one-way.
Ambulance company respondents also sent us certifications of medical necessity if they
had them. We did on-site interviews with 16 companies in 3 States. We received a
questiomaire for each of the 180 dialysis-related claims. A total of 242 questiomaires
were returned out of 280 mailed.

For transports that involved dialysis (180), we sent almost identical questionnaires to
the dialvsis facilitv’s head nurse and the beneficiary’s treatirw u hvsician. These
respondents used written medical records and memory to answer questions about the
beneficiary’s medical condition and ambulatory status on the date of ambulance
semice. While the response” rate for dialysis facilities was 100 percen~ it was only 55
percent for physicians. However, in most cases, the physicians we wrote to were
associated with the dialysis facility. Even when physicians did not return a
questiomaire their progress notes or discharge summaries were sent to us by the
dialysis facility nurses as supporting documents for the dialysis facility questionnaire.

MEDICAL REVIEW

We contracted with Federal Occupational Health (FOH), a division of the Public
Health Semite for a medical team to review the dialysis-related claims in our sample.
The FOH has conducted other medical reviews for various Federal agencies including
HCFA. A physician, board certified in Family Medicine, served as team leader,


                                             B-2
reviewer, and liaison with the OIG. The three other reviewers were registered nurses
with over 22 years combined experience in critical care.

We focused the medical review on dialysis-related   claims since these transports
account for very high annual ambulance bills and since they represented      almost two-
thirds (180 out of 280) of our sample. If a transport   was round  trip, only one leg of
the trip was reviewed by the contractor. The leg was chosen according to the
assignment of random numbers (1 or 2) to each round trip. Claims involving a
medical service other than dialysis, e.g., hospital emergency room, were not part of the
medical review.

The medical team used the documents we collected from various respondents to
determine whether the claims met Medicare coverage guidelines. Prior to mailing the
dialysis facility and physician questionnaires, the medical team’s leader helped the OIG
design the instruments so that sufficient data would be collected for determining
medical necessity. If claims met the Medicare guidelines they were determined
medically necessaqq if they did not, they were determined medically unnecessary. In
cases where claims had conflicting data, no determination was made.

Docummts for M&al       Review

We sent the medical team a folder of documents for each of the 180 dialysis-related
claims. The folders contained: claim forms, ambulance providers’ trip reports,
dialysis facility questionnaires and, when available, certifications of medical necessity
and physician questionnaires. The documents in the claim folders that made a
determination possible most frequently were those provided by dialysis facilities.

A majority of the dialysis facility questionnaires had supporting documents such as
progress notes, flow sheets, and discharge summaries. The physicians sent fewer
supporting documents with their questionnaires, and usually they were identical to the
ones attached to the facility questionnaire.

De temindom     of iUedica/Reviewer

Our medical reviewers sought evidence that a patient had a medical condition on the
date of ambulance service that made travel by other than an ambulance unsafe.
According to Medicare guidelines, a diagnosis of ESRD is not sufficient explanation to
warrant an ambulance. Documents reviewed by the medical team contained data
about the patient’s medical history, diagnoses, and ambulatory status. The reviewers
evaluated the accumulated data and determined that claims did not meet Medicare
guidelines if there was no medical condition that confined the patient to bed and/or
made travel by any means other than ambulance unsafe. They also used evidence that
the patient could walk or use a wheelchair to determine the patient was not bed-
confined.



                                           B-3

ANALYSIS OF NON-MEDICAL               DATA

Information not of a medical nature was analyzed by OIG program analysts. This
included responses from the ambulance providers and carriers in our sample.

Based on responses from ambulance providers, we determined three things: 1)
whether each transport was dialysis-related or involved an origin and destination other
than dialysis; 2) whether dialysis-related transports were scheduled or not; and
3) whether beneficiaries who had scheduled transports were also transported by the
ambulance provider on a regular basis. We received 173 responses to our question
concerning scheduled transports and 173 responses to our question about beneficiaries
who were transported regularly. Percentages of scheduled and regular transports were
calculated based on the number of responses only.

Based on the carrier interviews and their supporting documents we determined their
pre-payment and post-payment systems for identifying inappropriate claims. We
determined what systems were used in 1991 and whether new systems had been
established since then. We attempted to ascertain the effect of these systems on the
number of inappropriate claims identified and the dollar amounts they represented.
However, because most of the carriers did not have this information we could not
assess which systems were the most effective. Carrier respondents did tell us what
methods they thought would be effective in preventing inappropriate payments of
ambulance transports for ESRD beneficiaries.

We used carrier responses       in two other ways. First we were able to determine how
claims processors decided      a claim was medically necessary and whether information on
the claim form is verified.     Second, we determined how carriers educate ambulance
providers about coverage      and filling out claim forms.

ESTIMATES AND CONFIDENCE                INTERVAIS

The statistics presented in the report represent our best estimates and were weighted
based on the Rao-Hartly-Cochran method. We also computed 95 percent confidence
intervals for each of the estimates.


Table 1.

         PERCENTAGE OF DIALYSIS-RELATEDCLAIMS
              THAT WERE SCHEDULED
 Percentage
II98.6
                                 I
                                   95% Confidence Interval
                                 I 96.5-99.9
                                                                   I
                                                                   II




                                            B-4

Table 2

     PERCENTAGEOF DIALYSIS-RELATEDTRANSPORIXi
        THAT WERE REGULAR (3 XPERWEEK)
                                                                                  a
 Percentage                             95% Confidence Intemai
 96.8                                   94.4-99.1


Table 3.

                   DISTRIBUTION AND ALLOWED AMOUNTS OF CLATMS
                               BY TYPE OF TR4NSPORT
                             FOR ALL 2S0 SAMPLED CIAIhfS
                                  Estimated            95% Conf          Estimated           95% CQnf.
                                  Pereent              Interval for      Allowed             Interval for
                                                       percents          Amount *            amounts
 Ilia@ia TIanaports               67.1                                   61.5
 Met Guidelines                   19.3                 10.8-27.8         16.2                 6.2-26.2
 Did not meet                     46.9                 33.6-60.1         44.4                32.6-56.1
 guidelines

 Could not determine                .9                     0-22           .9                    0-2.5
 (conflicting data)

 Non-LXa@ia                       18.0                 10.8-25.2         13.6                 5.3-22.0
 Tranaporta

 unknown””                        14.9                 6.7-23.1          10.2                 3.5-16.9
 Totats                           100.0                                  85.3

* Dollar amounts in millions
** Data inaccessible for these claims


Table 4.
                              DISTRIBUTIONOF CLAIMS
                      BY DETERMINATIONOF MEDICAL NECESXW
                         FOR DL4LYSIS-RELATEDTRANSPORTS

                                              Sample         Estimated         95% Confidence
                                              size           Dereent           Intetval for Percent
 Dialysis Tramqmrta
                          180
 Met guidelines
                              56             28.8               16.0-41.6
 Did not meet guidelines
                     122            69.9              56.0-83.8

 CouId not determine                           2              1.3                0-3.2



                                                    B-5

Table 5.

                       DISTRIBUTION      OF DIALYSIS-RELATED      CLAIMS
                       THAT DID NOT MEEI’ MEDICARE GUIDEIJNES
                                     BY CARRIER

 Carner           Sample        Sample C1airns       Percent of         9570 Conildence
                  Dialysis-     Not Meeting          Claims Not         Internal for percent
                  Related       Guidelines           Meeting
                  Claims                             Guidelines
 A                26            6                    23.1               11.5-34.7
 B                25            12                   48.0               33.9-62.1
 c                8             4                    50.0               25.2-74.8
 D                20            14                   70.0               55.6-84.4
 E                16            13                   81.3               67.6-94.0
 F                32            26                   81.3               71.6-91.0
 G                20            17                   85.0               73.8-96.2
 H                33            30                   90.9               83.9-97.9




Table 6.

                         PERCENTAGE OF BENEFICIARIES
                         THAT WERE NOT BED—CONFINED
             [OUT OF CLAIMS THAT WERE NOT IvlEDICAUY NECESSARY)
                                 Percentage                  95% Confidence Interval
 Ambulatory                     .28.23                       16.23-40.23
 In wheelchairs                  35.31                       27.55-43.07

     Total                      I 6354                      ] 52-92-74.16                      II




                                              B-6

                  APPENDIX          C

COMMENTS   FROM THE HEALTH CARE FINANCING ADMINISTRATION




                            c-1
            ..   ,,,”!,,,
                                                                                                         Health care
        .
    .                       “’/   DEPART.%IENTOF HEALTH & HUMAN SERVICES                                 F,nancmg   Admmlstratton
.
:
---
‘ ->     J$c
   ,*,
      +,.“,,~
       >                                                                                                Memorandum
                                                                            ,,   j~   28    ~
                     Date                                           @

                                   Bruce C. Vlad             W@’
                     From
                                   Administrator
                                                   %


                      Sublect�     Office of Inspector General (OIG) Draft Report:         “Ambulance Semites t’or
                                   Medicare Erid-Stage Renal Disease Beneficiaries:        Medical Necessity,”
                                   (OEI-03-90-02130)
                      To


                                   June Gibbs Brown
                                   Inspector General


                                   We reviewed the subject draft report which looked at 1991 dialysis-related
                                   ambulance claims to determine if Medicare’s Part B coverage criteria for medical
                                   necessity were met.

                                   The Health Care Financing Administration (HCFA) concurs with the OIG
                                   recommendation to ensure that claims meet Medicare coverage guidelines.
                                   Attached are the actions HCFA has taken in this regard.

                                   Thank you for the opportunity to review and comment on this report. Please
                                   advise us if you would like to discuss our position on the report’s recommendation
                                   at your earliest convenience.

                                   Attachment




                                                                   [C-2]

           Comments   of the Health Care Financinp Administition       (HCFA)
               on Office of Inswctor General (OIG) Draft Renor&
      “Amimiance Services for Medicare End-Stage Rena] Disease Beneficiaries:
                       Medical Necessitv.” [OEI-03-90-02130~


OIG Recommendation

OIG recommends that HCFA ensure that claims meet Medi=re           c~erage   guidelines.

HCFA Resuonse

HCFA concurs and has taken the following actions

      o	    Carrier Medical Directors attend and participate in regional and national
            conferences where they have the opportunity to solicit input fkom their
            colleagues on policies such as dialysis-related ambulance transpor@ as weil
            as systems techniques for identi~ng and reviewing those claims.

            HCFA is developing a locai medical review policy retrieval system which
            will provide carriers with access to each other’s policies. They can use this
            system to gather information to change or improve their own poiicies.

      o	    Currently, there are a number of ambulance messages placed on the
            Explanation of Medicare 13enefits form when a beneficiary receives
            ambulance services. These messages are used to communicate ambulance
            coverage to beneficiaries. One such message reati. “Medicare does not
            pay for this (seMce) because you couid have traveled another way.”

             Additional steps however, may be needed to communicate the coverage
             limitations for ambuknce semices to beneficiaries HCFA will suggest that
             carriers add coverage limitations for ambulance services to beneficiaries as
             part of an outreach topic for the customer service plans they are
             developing for Fiscal Year 1995.

      0	     HCFA will request that the carriers include in an upcoming newsletter a
             reminder to ambulance companies of Medicare’s limited coverage of
             ambulance semice and the consequences of submitting bills for transports
             that are not medically necessary.

      o	     Many freestanding facilities have some type of direct relationship to a
             hospital; and those physicians may aiready be aware of the Medicare




                                         [C-3 ]

Page 2

              regulations because of that relationship. However, in some cases such a
              relationship does not exist and we will request that the carriers include the
              information on limits of Medicare coverage for end-stage renal disease
              (ESRD) in an upcoming newsletter.

         o�   HCFA carries out periodic medical necessity reviews of ESRD-related
              ambulance claims. Using available funding, carriers review claims data and
              determine ~ and when, it may be necessary to conduct intensified medical
              necessity reviews for ESRD ambulance claims.

              Since 1991, many of the carriers have put screens in place or more claely
              reviewed ESRD ambulance claims to eliminate wrongful Medicare
              payments. The medical reviews performed by carriers focus on provider-
              specific problems. If carrier data indicate a given provider submits a
              significant percentage of incorrect ESRD ambulance claimq the carrier
              may addre= the problem through what is called “comprehensive medi@”
              in which 100 percent of the provider’s ESRD ambulance claims are
              reviewed for a certain period of time. In addition, if carrier data indicate
              an unusually high dollar volume of ESRD ambulance claims are being
              submitted in its service ar~ it may develop a screen to conduct a
              100 percent review of all ESRD ambulance claims for as long as is
              necessary to identify and recti@ any aberranck

         o	   HCFA will add an explanation of the limited ambulance transportation
              benefit in The Guide to Health I nsurance for Peou le With Medicar~.

         o	   HCFA’S Office of Research and Demonstrations is undertaking a study
              that will (a) identify the detailed characteristics of ESRD ambulance use=
              and (b) assess the reasons for, and alternatives @ ambulance transport to
              dialysk

In addition, we are in the process of developing regulations   to address several issues
raised by OIG concerning coverage of ambulance setices.




                                        [C-4]

